                             ," 

                             ..




Department of Health and 
                           Hum     n Servces

               OFFICE OF

          INSPECTOR GENERAL





   MEDICARE SECONDARY PAYER:

  EFFECTIVENESS OF FIRST CLAIM

         DEVELOPMENT


MANAGEMENT ADVISORY REPORT





                                  SERVICE



                                            Richard P. Kusserow
                                            INSPECfOR GENERA

                                  cf1a         NOVEER 1991
                          OFFCE OF INSPECTOR GENL

The mission of the Office of Inspetor Genera (OIG), as mandated by Public Law 95­
452 , as amended , is to protect the integrity of the Deparment of Heath and Human
Services ' (HS) progras as well as the heath and welfare of beneficiares served by
those programs. This statutory mission is caed out though a nationwide network of
audits, investigations , and inspetions conducted by three OIG operating components: the
Office of Audit Services , the Office of Investigations , and the Office of Evaluation and
Inspetions. The OIG . also informs the Secreta of HHS of progra and management
problems and recommends courses to correct them.

                               OFFCE OF AUDIT SERVICES

The OIG' s   Offce of Audit Services(OAS) provides al auditing servces for HHS , either
by conducting audits with its own audit resources or by overseing audit work done by
others. Audits examine the performance of HHS progras and/or its grantees and
contrctors in caring out their respetive responsibilties and are intended to provide
independent assessments of HHS programs and operations in order to reduce waste , abuse
and mismanagement and to promote economy and efficiency throughout the Deparment.

                               OFFCE OF INESTIGATIONS

The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS progras or to HHS beneficiares and
of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions , administrative sactions , or civil money penalties. The 01 also overses
State Medicad fraud control units which investigate and proseute fraud and patient abuse
in the Medicad progra. ­

                   OFFCE OF EVALUATION AN INSPECTIONS
The OIG' s   Offce of Evaluation and Inspetions (OEI) conducts short-term    management
and program evaluations (caled inspetions) that focus on issues of concern to the
Deparment , the Congress , and the public. The findings and recmmendations contaned
in these inspetion reports generate rapid , accurate, and up-to-date information on the
efficiency, vulnerabilty, and effectiveness of deparmenta programs.

This report was prepared under the direction of Don McLaughlin , Regional Inspetor
Genera and James H. Wolf, Deputy Regional Inspetor Genera, Office of Evaluation and
Inspetions , Region VT. Parcipating in this project were the following peple:

Kans City                                                         Headquarters
Julie Quirin , Project Leder                                      Tom Noplock
Perr Seaton ,   Tea Leder
       ,. 

Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





  MEDICARE SECONDARY PAYER:

 EFFECTIVENESS OF FIRST CLAIM

        DEVELOPMENT


MANAGEMENT ADVISORY REPORT





        .. SERVlq:


                     Richard P. Kusserow
                     INSPECfOR GENERA

       ~~d1a             OEI-07-   9063
                    EXECUTIVE SUMMAR
PUROSE
To evaluate the effectiveness of developing the first claim submitted by or on behalf        of
a beneficiary to help identify other insurance coverage.

BACKGROUN
In June 1987 , Health Care Financing Administration (HCFA) required the carriers to
contact each beneficiary who is age 65 or 66 when the first Medicare claim is
submitted on hisfher behalf. This procedure entails sending a form letter to the
beneficiary asking for current employment and insurance information. If there is an
indication of a primary payment source , the claim is developed to establish primary
payment liability. If not , the claim is processed and paid as usual. To assess the
effectiveness of this procedure , we obtained data from 30 carriers.

FIINGS
Approxitely

priry payt
                     6.4    peent of th   ficlaim deelpe by carr
                           soures othe than Medare.
                                                                       suces        idti
Although some concer were exres
deelopmet efectiely            id         priry
                                                  carr representies belie fit claim
                                                  pa      soures.

Carr          vary greatly in the
deelopme process.
                                    nuer of MSP sitins       id      by th   fit claim



Th        HCF A does not
or on behalf of a diable            ben su pa
                             reqe carr to            on th fit claim sumied
                                         un th deelopm letter is retu
RECOMMNDATIONS

   HCFA shoul obtain data to evalute each carrs reportg o/fit claim
                  acti
Th

deelopmet        and                ase
                            complince wi aU                  fi
                                                  claim deelopmet procedes.

Th        HCF A shoul coUect heal
th reqed diabiI ben waitg
                                          inance informtin for diable    benri durg
COMMNT
The HCF A concurred with both recommendations presented              in the draf report.   The
HCF A' s verbatim comments are included in Appendix A.
                 . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. .. .                . . . . . ..
                                                                                                          . .. .. .. .. .. .. . . . . . . .




                         TABLE OF CONTENTS

EXECUTIV SUMMAY

INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 


FININGS                                                                                         . . . . . . . . . . . . . . . . . . . 3


RECOMMENDATIONS                                                                                                        . . . . . . . . . 6


AGENCY COMMENTS                                                                                                        . . . . . . . . . 7


APPENDIX A . . . . . . .                                                                                            . . . . . . . . A­
                          INTRODUCTION

PUROSE
To evaluate the effectiveness of developing the first claim submitted by or on behalf of
a beneficiary to help identify other insurance coverage.

BACKGROUN
The Health Care Financing Administration (HCF A) is responsible for administrating
the Medicare program and for ensuring compliance with Medicare legislation and
                            companies contract with HCF A to process and pay
regulations. Private insurance
Medicare claims. These contractors are known as fiscal intermediaries (Part A) and
carrers (Part B).

The contractors are responsible for ensuring that Medicare pays for covered care only
after reimbursement from other primary insurers has been made. Contractors are
required to administer the program in a manner that achieves maxmum savings and
cost avoidance to the Medicare trust funds. Medicare secondary payer (MSP)
provisions affect claims involving the working aged , spousal working aged , beneficiaries
with end-stage renal disease ,   beneficiaries eligible for payment under automobile
medical liability, and no- fault insurance; individuals eligible for or receiving workers
compensation; and the disabled.

Despite current procedures and HCF A initiatives to help identify MSP situations
contractors continue to have difficulties identifyng all beneficiaries who have a
primary payment source(s) other than Medicare. Previous studies and audits
conducted by the Offce of Inspector General have reported that Medicare is losing at
least $637 milion annually due to the contractor s inabilty to identify primary payment
sources.

In a previous OIG inspection " Extent of Unrecovered Medicare Secondary Payer
Funds " (OEI- 07- 90- 00760), we conducted MSP development on a random sample of
Medicare beneficiaries. We tracked our development costs to determine a cost-
benefit ratio. For every dollar spent to develop an MSP source , we identified $5.40
that should have been paid by insurance other than Medicare.

In June 1987 ,   HCF A required the carrers to contact each beneficiary who is age 65 or
66 when the first Medicare claim is submitted on his/her behalf. This procedure
entails sending a form letter to the beneficiary asking for current employment and
insurance information. Section 4307 of the Medicare Carrers Manual (MCM)
requires all claims be suspended until the questionnaire is completed by the
beneficiary and returned to the carrer.
If there is an indication of a primary payment source , the claim is developed to
establish primary payment liabilty. If not , the claim is processed and paid as usual.
no response is received after 30 days , a second letter is sent and if no response is
received after another 15 days , the claim is denied for insuffcient information.
Carrers are instructed to flag the beneficiary s fie and develop any subsequent claims
in the same manner. The HCFA' s instructions require that no claims be paid until
complete information is received.

MEllODOLOY
We mailed questionnaires to all Medicare carrers and the    Blue Cross Association to
obtain data concerning current first claim development procedures and their
effectiveness. We surveyed the carrers concernng their methods of development , the
percentage of claims that were verified MSP situations , and their suggestions to
improve the first claim development process. We also collected information relating
to the possibilty of expanding the current first claim development requirement to
develop the first claim submitted for a beneficiary each year.

In addition ,we analyzed information collected during onsite visits to carrer MSP units.
These visits were conducted to collect data for a previous OIG study entitled
 Medicare Prepayment Review: MSP Procedures at Carrers " (OEI- 07- 89- 01683).
During this study we examined the carriers ' methods and interpretation of first claim
development activities. The findings and recommendations presented in this report
are based on the information collected during these visits and an analysis of the
questionnaires. This report presents a summary of the questions that address
significant issues.
                                          FINDINGS

                                         fi  claim deelpe by carr suces idnti
pri pa                    peen of th
                    6.4
Apprxitely

                          soures othe   thn Medare.

Twenty- four   of the thirt carrers that responded to our survey developed a total of
  971  881  first claims during FY 1989. The HCFA does not require formal reporting
of first claim development activities. Due to the limited scope of this MA , we did
not veri the responses to the questionnaire because it would have required extensive
onsite work.

Six carrers indicated that they did not track this information so it was not readily
available for analysis. Of the remaining 24 carrers , one carrer reported 70 percent
and a second reported that 50 percent of the first claims developed successfully
identified a primary payment source other than Medicare. These two carriers were
not included in our analysis because we considered them to be "outliers.

We calculated the weighted average for the carrers. This method placed more
  weight" on those carrers who developed a greater volume of first claims.
Approximately 6.4 percent (126 200) of the first claims developed by the carriers
identified a primary payment source.

We also calculated the median of the percentages reported by the carriers. The
median number of first claims with a positive indication of a primary payment source
is 8 percent or a total of 157          750 claims.

According to HCF A, Medicare carriers processed 407 700 000 claims in FY 1989.
These claims totaled $27 171 022 826 in Medicare payment for an average of $66.
per claim. Using this average , the 24 carriers saved from $8 409 968 to $10 512 460 by
identifyng primary payment sources other than Medicare.


deelopme efectiely             id pri pa
Although some concer were exresed                 carr representies belie
                                                         soures.
                                                                            fit claim



The carriers responded that first claim development is an effective method of
identifyng MSP situations. When asked whether the current method of " first claim
development process effectively identifies MSP situations , all thirt carriers responded
positively. According to the carriers , first claim development is an important part
their development process.

Respondents from the carriers provided the following positive comments.

              First claim development gives Medicare the opportunity to gather the needed
             information pertaining to MSP before we make payment on the claim. This
             reduces the number of incorrect payments.
        We identify cases on a prepayment basis. By doing so , we avoid costly, time
       consuming overpayment recovery.

        Most of the working aged and working disabled are identified from this
       procedure.

Despite these and many similar comments , the respondents also expressed some
concerns with the procedure.



        The majority of responses received indicate that there is no MSP involvement.
       Therefore , payment for a new beneficiary s claim is often delayed unnecessarily.
       First claim development has generated many negative professional relations
       issues.

        The information received from the majority of beneficiaries is incorrect
       regarding EGHP/LGHP coverage.

        The number of positive MSP leads identified through first claim development
       is a very smal1 volume in comparison to the number of letters sent out by the
       MSP department.

Carr     vary greatly in the
deelopme proces.
                               nuer MSP sitins         id       by the fit   claim



Each carrer is required to conduct first claim development according to the
procedures outlined in Section 4307 of the MCM.

We asked the carriers to provide the percentage of first claims that successfully
identified MSP situations. The percentages provided ranged from two percent to
seventy percent. This is a large range for a process that should be consistent from
carrier to carrier.



A combination of two factors may be contributing to this variance. Carrers are not
required to track or report information concerning their first claim development
procedures. Therefore , some carrers may have reported more accurate figures than
others. Secondly, the variance may be due to different levels of compliance with the
first claim development procedures. Some carrers may be more aggressive in their
development.

In a prior onsite review of seven   carrers ,   we also questioned carrier representatives
about their first claim development procedures. We found a great variance in how the
process is conducted and how the instructions are interpreted.
Th   RCF A   do not reqe can to
or on behalf of a
                                su   pa     th fi   sumied
                    diable ben un th deelpm lett retu
                                                         on
                                                                  is
                                                                       claim


The HCFA has modified its instructions to the carrers concerning the first claim
development process. The procedures no longer require fIrst claim development for
disabled beneficiaries. Unless the carrer receives information from another source
that a primary payer exists , all claims for disabled beneficiaries are processed and paid
without delay. Carrers continue   to send development letters , however, claims
continue to be processed and paid before the letters are returned.

The HCF A made this modification for two reasons. Firstly, disabled individuals
tyically file many claims withi the first few months of Medicare eligibilty.
Suspending all of these claims would create a backlog and beneficiary relations would
suffer. Secondly, disabled beneficiaries often need assistance in responding to the
development letters. Therefore , responses to the letters would not be timely. This
also slows the payment process.

This modification creates an ineffcient " pay and chase " situation for the carrers.
When the carrer receives a development letter with a positive indication of a primary
payment source , the contractor must conduct a postpayment recovery.
               RECOMMENDA TIONS

Th HCF A shoul obtain data to evalte each cars reportg of fit claim
deelopm      act      and ase    complie wi      aD   fi claim deelopme procedes.
Currently, carrers are not required to keep statistics or submit reports about their first
claim development activities. To monitor compliance with the first claim development
requirements , HCF A should require the carrers to track and report information
relating to first claim development. The following list includes examples of the tye of
information that would help monitor first claim development procedures.

       The number of development letters sent.

       The total cost of first claim development procedures.

       The number of development letters returned within 30 days.

       The number of claims denied because a development letter was not returned.

       The number of MSP situations identified due to first claim development.

Th HCF   A shoul collct healt innce informtin for diable benri                   dug
the reqed   diabil ben waitg
We recognize that HCFA' s policy of not suspending the first claims of the disabled
until the development letters are returned is based on valid concerns. We believe that
an alternate solution is possible.

The Social Security Act provides entitlement to disabled beneficiaries following a two
year waiting period. During this period , HCF A could be advised of these disability
beneficiaries and begin the development process. When the disabled beneficiary is
eligible for Medicare , his/her health insurance situation will have been determined
prior to submission of the first claim. This would reduce the number of post-payment
recoveries by eliminating "pay and chase " situations for disabled beneficiaries and be a
more cost effective method of MSP development. At the same time , it would avoid
the obstacles during the first few months of eligibility.
                              COMMENTS

The HCF A concurred with both recommendations presented in the draft report. They
are arranging to utilze the Common Working File (CWF) to generate a report to
monitor first claim development activity and track contractor compliance.

Also , the HCFA is considerig a pre- claim development process to replace first claim
development. Ths process would include the disabled. It would collect complete
health insurance information at the time of Medicare enrollment and Medicare
beneficiaries would complete this form prior to filing their first claim. While this is
not exactly what we recommended regarding the disabled , we do agree it is responsive
to the problem that we raised.

The HCF A' s verbatim comments are included in Appendix A.
APPENDIX A

 AGENCY COMMENTS





       A ­

                                                                             nt:Cllln \"dlt:
          DEPARTMENT OF HEALTH &. HUMAN SERVICE                              Financing Administration



4.


         SEP 3 0 1991

                                                                             Memorandum
 Date

         Gail R. Wilensky, Ph.

 From    Admitrator
 Subject OIG Draf Management Advisory Report: ' 'Medicare Secondar Payer:
        Effectiveness of Firt Oai Development," OEI- 07- 90-0763


         Inpector General

         Offce of the Secreta


             We have reviewed the subject draf management advisory report which
         evaluates the effectiveness of fit claim development to identi priar insurers of
         Medicae beneficiaries. OIG found that, for the most part first claim development
         is effcient.

              OIG recommends that HCF A obtain data to evaluate each caer s reporting of
         first claim development activities and assure compliance with al first claim
         development procedures. They also recommend that HCF A should collect health
         insurance information for disabled beneficiaries durig the required disabilty benefit
         waiting period.   HCF A concurs with these recommendations. Our specifc
         comments are attached for your consideration.

            Thank you for the opportunity to review and comment on this draf
         management advisory report. Please advise us whether you agree with our position
         on the report s recommendations at your earliest convenience.

         Attachment




                                                    A ­

               Comments oUhealth Care Financing Adminstrtion
                  il    A) on t            raf Management Advisory
                  Report - ' 'Medicare Secondary Payer: Effectiveness
                   of First Oaim Development. " OEI- 07- 90-00763


Recommendation 1


HCF A should obta data to evaluate each carrer
                                               s         reportg of fit    clai

development acrvities and assure compliance        with al   fist clai development
procedures.

HCFA ResDonse

HCF A concur with     th recommendation. We are arangig for the establihment
                                                     clai development
of a Common Workig File report by contractors on fist
activities. Ths report will be used to monitor the activity and track contractor
compliance.

Recommendation 2

                                                                                  durg
HCF A should collect health insurance information for diabled beneficiares
the requied disability benefit waiting period.
HCFA ResDonse

HCF A concurs with this recommendation. We are           considerig the establishment of
                                                                       development. For
a pre- claim development process which would replac fist claim
that process , we would develop a questionnair
                                               to solicit the inormation currently
provided by fist claim development. The
                                           questionnaire would be distnouted at the
tie of   the intial Medicare enrollment, and would be completed by alclaim.
                                                                      Medicare

 beneficiaries, including the disabled, prior to 

                                                   fig their fit Medicare




                                            A ­

